No. !

IN THE SUPREME COURT OF THE UNITED STATES

KENNETH HAIRSTON, PETITIONER
vs.

COMMONWEALTH OF PENNSYLVANIA

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, Kenneth Hairston, pursuant to Title 18, United States Code, Section
3006A(d)(6) and Rule 39 of the United States Supreme Court, asks leave to file the
attached Petition for Writ of Certiorari without prepayment of costs, and to proceed in
forma pauperis. Counsel for the Petitioner was appointed by the Court of Common

Pleas of Allegheny County, Pennsylvania by the Honorable Jeffrey A. Manning.

DATED: August 20, 2021 |

Respectfully submitted,

    

 
IN THE COURT OF COMMON PLEAS FIFTH JUDICIAL DISTRICT
ALLEGHENY COUNTY, PENNSYLVANIA

COMMONWEALTH OF PENNSYLVANIA. CRIMINAL DIVISION

v. CC No. 20008984, 20009862

KENNETH HAIRSTON,
Defendant. ORIGINAL
ORDER OF COURT Dept ot Court Records

ee Allegheny County, PA.
AND NOW, this 23%" day of . veg _, 2017, pursuant to Pennsylvania

Rule of Criminal Procedure 904, it is ORDERED that Thomas N, Farrell, Esquire, is
appointed to represent the defendant for purpose of Post Conviction Collateral Relief.
The appearance of Bruce A. Antkowiak, Esquire is hereby WITHDRAWN.

The Department of Court Records shall serve a copy of this Order upon
counsel for the defendant, Thomas N. Farrell, Esquire, at 100 Ross Street, Suite 1
Pittsburgh, PA 15219by regular mail; upon Bruce A. Antkowiak, Esquire, at St.
Vincent College, 300 Fraser Purchase Road, Latrobe, Pennsylvania 15650, by
regular nail and upon the Office of the District Attorney of Allegheny County-
PCRA Unit, by interoffice mail; and upon the defendant, Kenneth Hairston, at
¥A9174, SCI Greene, 175 Progress Drive, Waynesburg, PA 15370

by certified mail, return receipt requested.

 

BY THE COURT:
By the Court: 3
a ianedient
2 2a
2 ofzN
ao 2 #8 = PU.
BE

lub & 25S President Judge
oc ON Sez
i 3 53s

= 5S APPENDIX A

2 b=
